ONE SHELL PLAZA
910 LOUISIANA
HOUSTON, TEXAS
77002-4995
TEL +1 713.229.1234
FAX +1 713.229.1522

AUSTIN
BRUSSELS
DALLAS
DUBAI
HONG KONG

HOUSTON

MOSCOW
NEW YORK
PALO ALTO
RIO DE JANEIRO
RIYADH
WASHINGTON

LONDON

May 12, 2021
081864.0118
BY ELECTRONIC FILING

Aaron Michael Streett
TEL +1 713.229.1855
FAX +1 713.229.7855
aaron.streett@bakerbotts.com

Hon. Scott Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Jeffrey Schweitzer, et al. v. Investment Committee of the Phillips 66 Savings Plan,
et al.; No. 20-1255

Dear Mr. Harris:
The petition for a writ of certiorari in the above-referenced case was placed on the
Court’s docket on March 10, 2021, and the Court requested a response after respondents’ waiver.
The respondents requested and the Court granted an extension for filing a brief in opposition to
and including May 21, 2021.
Pursuant to this Court’s Rule 30.4, respondents respectfully request that the time
within which to file a brief in opposition be extended to and including June 10, 2021. A short
extension will allow respondents to fully evaluate and respond to the petition, in light of
counsel’s obligations before this and other courts. Counsel of record for petitioners does not
oppose the requested extension.
Respectfully submitted,

Aaron M. Streett
Counsel for Respondents Investment Committee of
the Phillips 66 Savings Plan, et al.
cc:

Co-Counsel:
Travis Sales
Mark Bodron
Tina Nguyen
Counsel of Record for Petitioners:
Matthew W.H. Wessler

63109697.1

